CERTIFICATE OF COMPLIANCE
No.
KAREN C. HAN,
Petitioner,
v.
YANGRAI CHO,
Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ
of certiorari contains 3,030 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 26, 2021

Karen C. Han, pro se
2512 Carroll Ct.
Flower Mound, Texas 75022
Phone: (972) 355-7480
karenh514@gmail.com

